Department of Health and Human Services
             OFFICE OF
        INSPECTOR
         N        GENERAL




   INSPECTION RESULTS ON
  NURSING HOME COMPARE:
COMPLETENESS AND ACCURACY




                    Inspector General


                      June 2004
                    OEI-01-03-00130
               Office of Inspector General

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees state Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
�     A B S T R A C T 




                                  Nursing Home Compare is a Web site maintained by the Centers for
                                  Medicare & Medicaid Services (CMS) that provides consumers with
                                  information on nursing home quality. Consumers use the information
                                  on the site to help them choose the nursing home that best fits their
                                  needs. Therefore, it is essential that the site accurately portray all
                                  Medicare- and Medicaid-certified nursing homes. Using CMS databases
                                  and State survey documentation, we determined whether the site
                                  contained all Medicare- and Medicaid-certified nursing homes, and for a
                                  random sample of nursing homes, determined the accuracy of the
                                  inspection results provided on the site. We found that Nursing Home
                                  Compare contains nearly all Medicare- and Medicaid-certified nursing
                                  homes. However, one or more surveys were missing from 19 percent of
                                  nursing homes, leaving consumers with incomplete information about
                                  those homes' survey and complaint histories. Inspection results on
                                  Nursing Home Compare are largely accurate, but one or more
                                  deficiencies were missing from 11 percent of nursing homes’ inspection
                                  results, and Nursing Home Compare presents deficiencies not found on
                                  State survey documentation for 15 percent of nursing homes.
                                  Inaccuracies may be due to late data entry by State survey agencies, no
                                  tracking of inaccuracy reports by CMS, and failure of State survey
                                  agencies to transmit data on amended deficiencies. We recommend that
                                  CMS require State agencies to verify that the most recent inspection
                                  results are in CMS databases and establish a single point of contact for
                                  reporting discrepancies on the Web site.




    O E I - 01 - 03 - 0 0 1 3 0   IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   i
�       E X E C U T I V E                                           S U M M A R Y 



                              OBJECTIVES
                              To determine if Nursing Home Compare includes all Medicare- and
                              Medicaid-certified nursing homes.
                              To determine whether Nursing Home Compare includes all intended
                              inspection results.
                              To determine the accuracy of nursing home inspection results provided
                              on the Nursing Home Compare Web site.


                              BACKGROUND
                              In 1998, the Department of Health and Human Services (HHS)
                              launched the Nursing Home Compare Web site. The site is maintained
                              by the Centers for Medicare & Medicaid Services (CMS). Nursing Home
                              Compare provides information about the past performance of all
                              Medicare- and Medicaid-certified nursing homes in the country. The
                              site also serves as a source of public information on nursing home
                              quality. Consumers can use the information provided on the site to help
                              them choose the nursing home that best fits their needs. Therefore, it is
                              important that the site accurately portray all Medicare- and Medicaid-
                              certified nursing homes.
                              This report focuses on the inspection results section of Nursing Home
                              Compare. This section provides results from a nursing home's three
                              most recent Medicare certification surveys (referred to as health surveys
                              on Nursing Home Compare and in this report) and any complaint
                              investigations. The information in the inspection results section
                              includes type of deficiency, survey date, date the deficiency was
                              corrected, and scope and severity of the deficiency.
                              We base this inspection on the Nursing Home Compare database as of
                              April 1, 2003. To determine completeness, we matched the nursing
                              homes on the site with those on a CMS database that contains
                              information on Medicare- and Medicaid-certified nursing homes. To
                              determine accuracy, we matched Nursing Home Compare inspection
                              results from a simple random sample of 150 nursing homes with State
                              survey documentation. The State survey documentation includes
                              statements of deficiency from health surveys and complaint
                              investigations, as well as informal dispute resolution outcomes.




O E I - 01 - 03 - 0 0 1 3 0   IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   ii
E    X      E      C       U      T   I     V     E           S     U        M     M       A     R      Y



                                          FINDINGS
                                          Nursing Home Compare contains almost all Medicare- and Medicaid-
                                          certified nursing homes. Less than 1 percent of nursing homes did not
                                          match to either Nursing Home Compare or the Minimum Data Set
                                          (MDS) facility file, a demographic database of nursing homes
                                          maintained by CMS. Nursing Home Compare excluded 55 nursing
                                          homes (0.2 percent) included in the MDS facility file. Nursing Home
                                          Compare included 119 nursing homes (0.7 percent) that were not found
                                          in the MDS facility file over a 5-month period.
                                          Nineteen percent of nursing homes had one or more surveys
                                          missing on Nursing Home Compare. Nursing Home Compare lacked
                                          the most current health survey for 7 percent of nursing homes, meaning
                                          that it instead provided older information. It also lacked either a
                                          complaint investigation or the second or third most recent health survey
                                          for 12 percent of nnursing homes. Furthermore, when Nursing Home
                                          Compare does not include deficiencies from complaint investigations,
                                          consumers have no way of determining that.
                                          Inspection results on Nursing Home Compare are largely accurate,
                                          but some areas of concern exist. Sixty-eight percent of nursing
                                          homes had Nursing Home Compare inspection results that exactly
                                          matched State survey documentation. Eleven percent of nursing homes
                                          had one or more deficiencies missing from their inspection results on
                                          Nursing Home Compare. Furthermore, Nursing Home Compare
                                          presents deficiencies not found on State survey documentation for 15
                                          percent of nursing homes. These inaccuracies may be due to late data
                                          entry by State survey agencies, no tracking of inaccuracy reports by
                                          CMS, and/or failure of State survey agencies to transmit data on
                                          amended deficiencies.


                                          RECOMMENDATIONS
                                          Overall, Nursing Home Compare's inspection results provide consumers
                                          with a valuable resource on the past performance of Medicare- and
                                          Medicaid- certified nursing homes. However, we found some
                                          inaccuracies between Nursing Home Compare and State survey reports
                                          that deserve attention, and suggest that CMS could do more to ensure
                                          that consumers receive the most accurate data possible when choosing a
                                          nursing home.




    O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   iii
E    X      E      C       U      T   I     V     E           S     U        M     M       A     R      Y


                                          CMS should work to enhance Nursing Home Compare by:
                                          Requiring State agencies to verify that the most recent inspection
                                          results are in CMS databases. Timely and accurate inspection results
                                          on Nursing Home Compare depend on State surveyors transmitting
                                          data into the Online Survey Certification and Reporting system
                                          (OSCAR), the CMS database containing survey information. To ensure
                                          that data have been promptly transmitted into OSCAR, State agencies
                                          should verify the most recent inspection results in OSCAR with those in
                                          the Automated Survey Processing Environment (ASPEN) system, the
                                          application used for survey data entry and transmission to OSCAR.
                                          Establishing a single point of contact for reporting Nursing Home
                                          Compare inaccuracies. By having a single point of contact within
                                          CMS for reporting inaccuracies, CMS would be able to track and
                                          conduct follow-up on information that is reported to be inaccurate.
                                          Agency Comments
                                          CMS agreed with our first recommendation to require State agencies to
                                          verify that the most recent inspection results are in Nursing Home
                                          Compare, citing it has performance standards under development.

                                          CMS disagreed with our second recommendation to establish a single
                                          point of contact for reporting Nursing Home Compare inaccuracies. The
                                          agency commented that “multiple CMS components are involved in
                                          providing Nursing Home Compare data on the Web site”, making a
                                          single point of contact impractical. CMS, however, will consider adding
                                          regional office contact information to Nursing Home Compare to
                                          facilitate corrections to the Web site. We continue to believe that a
                                          single point of contact for reporting inaccuracies would be the most
                                          effective solution. However, we appreciate CMS’s consideration of
                                          adding regional office contact information to Nursing Home Compare,
                                          and urge CMS to follow through on this idea.




    O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   iv
�   T A B L E             O F             C O N T E N T S 




         A B S T R A C T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i





         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii




         I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                     Nursing Home Compare contains almost all nursing homes ............ 6


                     Nursing Home Compare does not contain all surveys....................... 7


                     Inspection results are largely accurate, but areas of concern exist... 8




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12




         A P P E N D I C E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                     A: Definitions of scope and severity of deficiencies ........................ 14


                     B: Methodology................................................................................ 15


                     C: Agency Comments ...................................................................... 19



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22




         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

�       I N T R O D U C T I O N 



                              OBJECTIVES
                              To determine if Nursing Home Compare includes all Medicare- and
                              Medicaid-certified nursing homes.
                              To determine whether Nursing Home Compare includes all intended
                              inspection results.
                              To determine the accuracy of nursing home inspection results provided
                              on the Nursing Home Compare Web site.


                              BACKGROUND
                              Nursing Home Compare
                              In 1998, the Department of Health and Human Services (HHS)
                              launched the Nursing Home Compare Web site. The purposes of the
                              site are "to provide detailed information about the past performance of
                              every Medicare- and Medicaid-certified nursing home in the country"
                              and to serve as a source of public information on nursing home quality.1
                              The site allows Medicare beneficiaries and their caregivers access to
                              individual nursing home quality information to help them choose the
                              nursing home that best fits their needs. Consumers access Nursing
                              Home Compare through the main consumer Medicare Web site,
                              www.medicare.gov.

                              The Centers for Medicare & Medicaid Services (CMS) operates Nursing
                              Home Compare. CMS intends the information on the site to be used
                              with other sources of information, such as a visit to a nursing home.
                              Currently, the site provides information on about 17,000 nursing homes.
                              Between March 2002 and July 2003, Nursing Home Compare received
                              an average of 134,000 visits per month. Nursing Home Compare
                              presents four categories of information:
                              •	     inspection results, including deficiencies from Medicare
                                     certification surveys and complaint investigations
                              •	     facility characteristics, such as number of beds and type of
                                     ownership
                              •      nursing home staffing levels

                              •	     quality measures, which provide information on clinical and
                                     physical characteristics of a nursing home's residents




O E I - 01 - 03 - 0 0 1 3 0   IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   1
      I   N      T      R      O        D   U      C     T     I    O         N


                                                Nursing Home Compare Inspection Results
                                                The inspection results section on Nursing Home Compare lists
                                                deficiencies from the three most recent Medicare certification surveys
                                                (referred to as health surveys on Nursing Home Compare and in this
                                                report), as well as those from substantiated complaint investigations
                                                conducted in the past 3 years for each nursing home. State survey
                                                agencies conduct nursing home surveys on behalf of CMS. Health
                                                surveys, which evaluate the quality of care and the services provided by
                                                the nursing home, occur on an average of every 12 months but no less
                                                frequently than every 15 months. State surveyors also conduct
                                                complaint investigations, as necessary, outside of the cycle of health
                                                surveys and cite deficiencies, as appropriate.

                                                Nursing Home Compare clusters deficiencies from each of the three
                                                health surveys with deficiencies from complaint investigations for an
                                                approximate 1-year period. The site describes each deficiency, provides
                                                the date that the deficiency was cited and corrected, and lists the scope
                                                and severity of the deficiency (see Figure 1). Severity refers to the level
                                                of harm, and scope refers to the number of affected residents. Nursing
                                                Home Compare also provides definitions for scope and severity (see
                                                Appendix A).


             FIGURE 1
Deficiency Information
 Presented on Nursing
       Home Compare




                                                       Deficiency and                     Date deficiency                       Severity of                   Scope of
                                                            date cited                      was rectified                       deficiency                   deficiency


                                            Source: Nursing Home Compare Web site, Centers for Medicare & Medicaid Services, August 2003




                                                Nursing Home Compare Inspection Results and OSCAR
                                                Inspection results on Nursing Home Compare come from CMS's Online
                                                Survey Certification and Reporting (OSCAR) system, a database
                                                containing survey information for all Medicare- and Medicaid-certified
                                                nursing homes. After completion of a health survey or complaint
                                                investigation, State surveyors enter inspection results into the


          O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY            2
I   N      T      R      O        D   U      C     T     I    O         N


                                          Automated Survey Processing Environment (ASPEN) system.
                                          Surveyors use ASPEN to electronically transmit inspection results into
                                          OSCAR. According to CMS's State Survey Agency Performance
                                          Standards for Fiscal Year 2003, the average time for transmitting data
                                          from health surveys and complaint investigations into OSCAR must not
                                          exceed 70 calendar days from the last day of the survey.
                                          Nursing Home Compare does not include information for deficiencies
                                          that are under dispute and notes this in a disclaimer on the site.
                                          Nursing homes can appeal deficiencies from health surveys and
                                          complaint investigations through the State survey agency with informal
                                          dispute resolution. Any deficiency undergoing this process is not
                                          transmitted into OSCAR. When informal dispute resolution concludes,
                                          State survey agencies transmit any deficiencies that remain into
                                          OSCAR. These deficiencies will then appear on Nursing Home
                                          Compare.
                                          CMS updates the inspection results on Nursing Home Compare
                                          monthly. At the beginning of each month, data analysts in CMS's
                                          Center for Medicaid and State Operations extract data from OSCAR.
                                          CMS's Center for Beneficiary Choices, which is responsible for the
                                          appearance and content of Nursing Home Compare, then provides the
                                          data to its contractor who maintains the Nursing Home Compare Web
                                          site. The contractor incorporates the new data into Nursing Home
                                          Compare by the end of each month.
                                          Prominence of Nursing Home Compare
                                          According to CMS officials, about 20 percent of visitors to the main
                                          Medicare Web site access Nursing Home Compare, making Nursing
                                          Home Compare one of the most frequently visited sections of the
                                          Medicare Web site.2 Nursing Home Compare's popularity likely can be
                                          attributed to nationwide promotion of the Web site. In November 2002,
                                          CMS placed advertisements in 71 newspapers across all 50 States.
                                          CMS also promoted Nursing Home Compare in national television
                                          advertisements. The media campaign aimed to increase public
                                          awareness of the site as a principal source of nursing home quality
                                          information. Prior to the media campaign and launch of the quality
                                          measures, Nursing Home Compare received fewer than 100,000 visits
                                          per month. In November 2002, Nursing Home Compare received about
                                          400,000 visits.

                                          CMS has used Nursing Home Compare as a model for reporting quality
                                          information to consumers on other types of Medicare-certified facilities

    O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   3
I   N      T      R      O        D   U      C     T     I    O         N


                                          and services. Currently, consumers can access Home Health Compare
                                          and Dialysis Facility Compare from the Medicare Web site. An
                                          initiative to report quality information for hospitals is in progress.
                                          Concerns about Nursing Home Compare
                                          In February 2002, the House of Representatives' Committee on
                                          Government Reform released the report, HHS 'Nursing Home Compare'
                                          Website Has Major Flaws. The report found that Nursing Home
                                          Compare excluded deficiencies from complaint investigations, thus not
                                          presenting a complete picture of the nursing home. In May 2002, CMS
                                          added deficiencies from complaint investigations to Nursing Home
                                          Compare's inspection results section.

                                          In October 2002, the General Accounting Office released the report,
                                          Nursing Homes: Public Reporting of Quality Indicators Has Merit, but
                                          National Implementation is Premature. The report raised concerns
                                          about the validity and usefulness of the quality measures posted on
                                          Nursing Home Compare and concluded that CMS was prematurely
                                          reporting the measures. Furthermore, the report stated that CMS was
                                          not adequately prepared to address questions raised by the public
                                          concerning the site. In its comments on the report, CMS affirmed its
                                          decision to release the quality measures as a means of providing
                                          consumer information and public accountability.

                                          This Inspection
                                          Considering the efforts to increase public awareness of Nursing Home
                                          Compare as a tool for consumers, it is essential that the site accurately
                                          portray all Medicare- and Medicaid-certified nursing homes. This
                                          inspection focuses on the completeness of the Nursing Home Compare
                                          Web site, as well as the accuracy of the inspection results section of the
                                          site. Determining the completeness of Nursing Home Compare shows
                                          whether the site contains all Medicare- and Medicaid-certified nursing
                                          homes. Assessing the accuracy of inspection results shows whether
                                          Nursing Home Compare contains the inspection results it claims to
                                          present, as well as whether it presents consumers with correct and
                                          reliable information.

                                          This inspection does not assess the accuracy of the other three
                                          categories of information on Nursing Home Compare: facility
                                          characteristics, staffing levels, and quality measures.




    O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   4
I   N      T      R      O        D   U      C     T     I    O         N



                                          METHODOLOGY
                                          This inspection is based on the Nursing Home Compare database as of
                                          April 1, 2003. On this date, Nursing Home Compare included 16,446
                                          Medicare- and Medicaid-certified nursing homes.
                                          To determine the completeness of Nursing Home Compare, we matched
                                          provider numbers and addresses of all nursing homes included in
                                          Nursing Home Compare with nursing homes included in the Minimum
                                          Data Set (MDS) facility file, a demographic data file of nursing homes
                                          that submit resident assessments.
                                          To determine whether Nursing Home Compare includes all intended
                                          inspection results, as well as the accuracy of the inspection results
                                          provided by Nursing Home Compare, we selected a national, simple
                                          random sample of 150 nursing homes from Nursing Home Compare.
                                          We then requested survey documentation from State survey agencies.
                                          Survey documentation consisted of statements of deficiency for health
                                          surveys and complaint investigations as well as outcomes from informal
                                          dispute resolution, if relevant, for the sampled nursing homes. Our
                                          response rate from the State survey agencies was 100 percent. We
                                          matched survey documentation to the information presented on Nursing
                                          Home Compare for each nursing home. With this information, we
                                          assessed whether any health or complaint surveys were missing from
                                          Nursing Home Compare. The information we matched for accuracy
                                          included dates of surveys, number of deficiencies, and the scope and
                                          severity of deficiencies.
                                          We interviewed staff in CMS central and regional offices who work with
                                          Nursing Home Compare and survey and certification of nursing homes.
                                          We also reviewed documentation relevant to Nursing Home Compare's
                                          inspection results, including CMS's State Operations Manual and State
                                          Survey Agency Performance Standards for Fiscal Year 2003. Appendix
                                          B contains a detailed description of our methodology.
                                          We conducted this inspection in accordance with the Quality Standards
                                          for Inspections issued by the President's Council on Integrity and
                                          Efficiency.




    O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   5
       F    I    N
     �             F DI IN ND G I SN G S



           Nursing Home Compare contains almost all        In order to fully provide consumers
  Medicare- and Medicaid- certified nursing homes.	        with all available options for
                                                           nursing homes, Nursing Home
                       Compare must contain all Medicare- and Medicaid-certified nursing
                       homes. Our match of the 16,446 nursing homes in Nursing Home
                       Compare and the MDS facility file showed that Nursing Home Compare
                       included almost all nursing homes (see Figure 2).




             FIGURE 2                      Nursing Homes in
Match of Nursing Home                      MDS Facility File
Compare database with                      NOT Nursing Home Compare
   the MDS facility file                   0.2 percent (n=55)




                                                                             Nursing Homes in
                                                                             Nursing Home Compare
                                                                             and MDS Facility File



                                                                                                                                                Nursing Homes in
                                                                                                                                          Nursing Home Compare
                                                                                                                                           NOT MDS Facility File
                                                                                                                                              0.7 percent (n=119)


                                         Source: OIG analysis of nursing homes in Nursing Home Compare and the MDS facility file, 2003




                                         In all, less than 1 percent of nursing homes did not appear in both
                                         Nursing Home Compare and the MDS facility file. Nursing Home
                                         Compare included 119 nursing homes (0.7 percent) that were not found
                                         in the MDS facility file over a 5-month period. Nursing Home Compare
                                         did not include 55 nursing homes (0.2 percent) included in the MDS
                                         facility file. These 55 nursing homes submitted MDS data, yet no
                                         evidence of their operation exists in Nursing Home Compare.
                                         A closer look at the 119 nursing homes from Nursing Home Compare
                                         not found in the MDS facility file showed that Nursing Home Compare
                                         may erroneously include many of these nursing homes. For example, 14
                                         of the 119 nursing homes had not had a health survey in 2 years,
                                         though CMS requires nursing homes to be surveyed every 15 months
           O E I - 01 - 03 - 0 0 1 3 0   IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY             6
     F    I    N       D      I        N   G    S


                                               (107 of the 119 were surveyed within the 2-year period). To determine
                                               whether some of the 119 nursing homes might be closed, we contacted a
                                               survey agency in 1 State to confirm the operating status of its 9 nursing
                                               homes that were in Nursing Home Compare but not the MDS facility
                                               file. The State survey agency informed us that seven of the nine
                                               nursing homes were closed. The October 2003 update of Nursing Home
                                               Compare still included all seven of the closed nursing homes. In
                                               addition to the potentially closed nursing homes, six nursing homes had
                                               obtained new provider numbers and were listed twice in Nursing Home
                                               Compare with both the new and old provider numbers.


Nineteen percent of nursing homes had one or more              Nursing Home Compare informs
         surveys missing on Nursing Home Compare.	             consumers that the inspection
                                                               results section includes
                        deficiencies from the three most recent health surveys as well as from
                        recent substantiated complaint investigations. 3 State survey agencies
                        have 70 days after the last day of a survey to transmit survey results
                        into OSCAR. However, Nursing Home Compare lacked one or more of
                        the three most recent health surveys and/or complaint investigations
                        that should have been there for 19 percent of nursing homes. 4 These
                        surveys and investigations included 206 deficiencies unaccounted for on
                        Nursing Home Compare. Nursing home Compare lacked the most
                        recent health survey for 7 percent of nursing homes, meaning that it
                        instead provided older information.

                                               If Nursing Home Compare does not reflect the most recent inspection
                                               results, consumers may be misled by the information presented. For
                                               example, the 2 most recent surveys occurring in 2002 and 2000 for 1
                                               nursing home yielded 40 and 14 deficiencies, respectively. However,
                                               Nursing Home Compare's inspection results show three older surveys
                                               for this nursing home. The three surveys on Nursing Home Compare
                                               occurred in 1999, 1998, and 1997, and yielded 18, 9, and 2 deficiencies,
                                               respectively.
                                               Furthermore, Nursing Home Compare lacked complaint investigations
                                               for 8 percent of nursing homes. A complaint investigation on Nursing
                                               Home Compare provides an additional level of detail about the
                                               performance of a nursing home, but when it is missing, the nursing
                                               home erroneously appears more favorable to the consumer.
                                               Late data entry by State survey agencies may explain most of the
                                               missing health surveys. As the majority of the missing health surveys

         O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   7
       F    I    N       D      I        N   G    S


                                                 and complaint investigations could be found in Nursing Home Compare
                                                 by the latter part of 2003, State survey agencies apparently exceeded
                                                 the 70-day time period required to enter results into OSCAR. However,
                                                 only the recent missing health surveys and complaint investigations can
                                                 be attributed to late data entry, as older health surveys and complaint
                                                 investigations were still missing. CMS evaluates the accuracy and
                                                 timeliness of data entry by State survey agencies semiannually.5
                                                 However, this evaluation is a retrospective review, so missing surveys
                                                 could go undetected for as long as 6 months.




    Inspection results on Nursing Home Compare are              If State survey documentation
                                                                exactly matched the inspection
   largely accurate, but some areas of concern exist.	
                                                                results on Nursing Home
                         Compare for our sample of 150 nursing homes, we considered that
                         information on the site to be accurate. Five different types of
                         inaccuracies existed between Nursing Home Compare inspection results
                         and State survey documentation. Table 1 shows the number and
                         percentage of each type of inaccuracy. As some nursing homes had
                         more than one inaccuracy between Nursing Home Compare and State
                         survey documentation, percentages listed do not total 100 percent.
                         Below, we discuss Nursing Home Compare’s accurate inspection results,
                         as well as the the two most significant types of inaccuracies.


               TABLE 1                             Type of Inaccuracy                                                                             Number of       Percent of
Number and Percentage                                                                                                                             Nursing         Nursing Homes
 of Nursing Homes with                                                                                                                            Homes with      with
  Inaccuracies between                                                                                                                            Inaccuracies    Inaccuracies
Nursing Home Compare
                                                   Deficiencies incorrectly posted on Nursing Home                                                       23            15%
       and State Survey                            Compare
 Documentation (n=150)
                                                   Deficiencies missing from Nursing Home Compare                                                        16            11%

                                                   Incorrect scope and/or severity score                                                                 12            8%

                                                   Incorrect deficiency date                                                                              6            4%

                                                   Incorrect deficiency description                                                                       4            3%


                                                 Source: OIG analysis of Nursing Home Compare inspection results and State survey documentation, 2003




           O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY          8
    F    I    N       D      I        N   G     S


                                              Sixty-eight percent of nursing homes had Nursing Home Compare
                                              inspection results that exactly matched State survey documentation.
                                              Accurate reporting of this information allows the consumer to
                                              confidently gather detailed information about the type of deficiency, the
                                              level of severity, and scope of the deficiency. It gives a picture of the
                                              timing of surveys and substantiated complaint investigations, and the
                                              deficiencies from each. For 68 percent of nursing homes, Nursing Home
                                              Compare accurately reported inspection results, based on a match to
                                              State survey documentation (see Figure 3).


          FIGURE 3

  Percent of nursing 

                                                                                            9%
homes by number of 

                                                                                 1%
       inaccuracies

                                                                        7%




                                                            15%




                                                                                                                                               68%             None
                                                                                                                                                               1
                                                                                                                                                               2
                                                                                                                                                               3
                                                                                                                                                               4 or more



                                              Source: OIG analysis of Nursing Home Compare inspection results and State survey documentation, 2003




                                              Nursing homes with a low number of deficiencies tended to be
                                              accurately presented on Nursing Home Compare. Nursing homes with
                                              no inaccuracies between State survey documentation and Nursing
                                              Home Compare had significantly fewer deficiencies than nursing homes
                                              with inaccuracies. Across all 3 survey periods on Nursing Home
                                              Compare, nursing homes without inaccuracies had an average of 17
                                              deficiencies. Nursing homes with inaccuracies averaged 35
                                              deficiencies. 6




        O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY               9
F    I    N       D      I        N   G    S


                                          Eleven percent of nursing homes had one or more deficiencies missing
                                          from their inspection results on Nursing Home Compare.
                                          These represent instances where Nursing Home Compare excluded one
                                          or more deficiencies from a nursing home's health survey or complaint
                                          investigation, based on State survey documentation. On average,
                                          Nursing Home Compare lacked two deficiencies for each of these
                                          nursing homes. Thus, 11 percent of nursing homes appeared to
                                          consumers to have fewer deficiencies than actually existed.
                                          Of the deficiencies missing on Nursing Home Compare, 43 percent had
                                          been unsuccessfully appealed through informal dispute resolution, thus
                                          were not eliminated by the process. While undergoing informal dispute
                                          resolution, a deficiency is withheld from OSCAR and not provided on
                                          Nursing Home Compare. If deficiencies remain after informal dispute
                                          resolution, it is the responsibility of the State survey agency to promptly
                                          update OSCAR. If the deficiency is not entered into OSCAR, the
                                          deficiency cannot be presented on Nursing Home Compare.
                                          For 1 nursing home, Nursing Home Compare shows 13 deficiencies for a
                                          nursing home's most recent health survey. However, the nursing
                                          home's survey results do not show an additional 11 deficiencies that
                                          were unsuccessfully appealed through informal dispute resolution. Two
                                          of the missing 11 deficiencies indicate citations for actual harm, which
                                          likely would be a caution to a consumer. CMS ranks deficiencies cited
                                          as actual harm the second-highest level of deficiency severity.
                                          CMS is unlikely to become aware of these inaccuracies unless nursing
                                          homes report them, which is also unlikely, since these inaccuracies
                                          portray nursing homes as better than they are. Even if CMS does
                                          become aware of these inaccuracies, it does not track reports of
                                          inaccuracies to determine whether they are recitified by State survey
                                          agencies. CMS may also find these inaccuracies through its semiannual
                                          evaluation of data accuracy and timeliness. However, CMS's review
                                          looks at only a random sample of surveys conducted during the fiscal
                                          year and permits an overall accuracy rate of 85 percent.7
                                          Nursing Home Compare presents deficiencies not found on State survey
                                          documentation for 15 percent of nursing homes.
                                          Deficiencies appeared on Nursing Home Compare that State survey
                                          documentation did not substantiate for 23 nursing homes we reviewed.
                                          These false positive deficiencies make these nursing homes appear to
                                          consumers to have more deficiencies than actually exist. In all, 63 false
                                          positive deficiencies exist, with about half coming from just 4 nursing

    O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   10
F    I    N       D      I        N   G    S


                                          homes. For 1 of the 4 nursing homes, 10 deficiencies from a health
                                          survey are duplicated on Nursing Home Compare for a date 2 months
                                          after the original survey. Survey documentation exists for these
                                          deficiencies for just one of the dates. Thus, Nursing Home Compare's
                                          inspection results for this nursing home appear worse than the nursing
                                          home actually is.
                                          Of the 23 nursing homes with false positives, 8 had 1 deficiency
                                          appearing on Nursing Home Compare that had been successfully
                                          appealed through informal dispute resolution. For these eight nursing
                                          homes, State survey agencies had incorrectly transmitted deficiencies
                                          under dispute into OSCAR, and then did not remove the deficiencies
                                          when resolved by informal dispute resolution.
                                          If nursing homes detect inaccuracies within their inspection results,
                                          Nursing Home Compare directs them to contact their respective State
                                          survey agency to correct the information in OSCAR. CMS does not
                                          track the number of such reports, the types of inaccuracies reported, or
                                          whether the State survey agency rectified the inaccuracies.




    O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   11
R    E      C
0           R OE MC MO EM NM D E A N T DI AO TN IS O N S



                                  Overall, Nursing Home Compare's inspection results provide consumers
                                  with a valuable resource on the past performance of Medicare- and
                                  Medicaid- certified nursing homes. However, we found some
                                  inaccuracies between Nursing Home Compare and State survey reports
                                  that deserve attention, and suggest that CMS could do more to ensure
                                  that consumers receive the most accurate data possible when choosing a
                                  nursing home.
                                  CMS should enhance Nursing Home Compare by:
                                  Requiring State agencies to verify that the most recent inspection results
                                  are in CMS databases. Timely and accurate inspection results on
                                  Nursing Home Compare depend on the transmission of survey data by
                                  State surveyors into OSCAR, the CMS database containing survey
                                  information. However, Nursing Home Compare did not include some
                                  cited deficiencies as well as entire surveys. In some cases, Nursing
                                  Home Compare did not reflect changes in deficiencies amended through
                                  informal dispute resolution. If State survey agencies do not transmit
                                  data into OSCAR, then changes will not be reflected on Nursing Home
                                  Compare.
                                  To assure that data have been promptly transmitted into OSCAR, State
                                  agencies should verify the most recent inspection results in OSCAR
                                  with those in ASPEN, the system used for survey data entry and
                                  transmission to OSCAR. This verification can be included as an offsite
                                  survey preparation task. Currently, CMS's offsite survey preparation
                                  requires state surveyors to review an OSCAR report of the nursing
                                  home, which contains deficiencies from the past four health surveys and
                                  complaint investigations. Surveyors can use the same OSCAR report to
                                  compare deficiencies from the most recent health survey and complaint
                                  investigations with those on ASPEN.
                                  To target this verification, CMS could direct State survey agencies to
                                  begin this activity with nursing homes that have the most deficiencies.
                                  As we found, the more deficiencies a nursing home had, the more likely
                                  there were inaccuracies in its inspection results on Nursing Home
                                  Compare.
                                  Establishing a single point of contact for reporting Nursing Home
                                  Compare inaccuracies. Given our finding that Nursing Home Compare
                                  presents deficiencies not supported by the State survey report for 15
                                  percent of nursing homes, these nursing homes may be incorrectly


    O E I - 01 - 03 - 0 0 1 3 0   IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   12
R    E      C       O      M      M   E    N     D      A     T      I     O      N      S


                                      portrayed as having deficiences not found to exist. Nursing Home
                                      Compare advises nursing homes that discover incorrect information to
                                      report it to their State survey agencies. However, CMS does not track
                                      these reports of inaccuracies. Hence, it is unable to assess the number
                                      of inaccuracies reported, or if the State survey agencies made the
                                      corrections. By having a single point of contact within CMS for
                                      reporting inaccuracies, CMS would be able to track and follow up on
                                      information that is reported to be inaccurate. Contact information for
                                      this individual (either a phone number or an electronic mail address)
                                      should be included on the Nursing Home Compare Web site.
                                      Agency Comments
                                      CMS agreed with our first recommendation to require State agencies to
                                      verify that the most recent inspection results are in Nursing Home
                                      Compare, citing it has performance standards under development.

                                      CMS disagreed with our second recommendation to establish a single
                                      point of contact for reporting Nursing Home Compare inaccuracies. The
                                      agency commented that “multiple CMS components are involved in
                                      providing Nursing Home Compare data on the Web site”, making a
                                      single point of contact impractical. CMS, however, will consider adding
                                      regional office contact information to Nursing Home Compare to
                                      facilitate corrections to the Web site. We continue to believe that a
                                      single point of contact for reporting inaccuracies would be the most
                                      effective solution. However, we appreciate CMS’s consideration of
                                      adding regional office contact information to Nursing Home Compare,
                                      and urge CMS to follow through on this idea.
                                      CMS also made a technical comment concerning its policy for handling
                                      duplicate deficiencies. CMS noted that its Web site contractor
                                      suppresses duplicate deficiencies if a deficiency is cited on both a
                                      complaint investigation and a health survey within 15 days of each
                                      other. CMS officials informed us of this policy during this inspection;
                                      thus, we did not count duplicate deficiencies within this time frame as
                                      inaccuracies. For the full text of CMS’s comments, see Appendix C.




    O E I - 01 - 03 - 0 0 1 3 0       IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   13
�       A P P E N D I X                                           ~            A 




              Nursing Home Compare Definitions of Scope and Severity of Deficiencies




                 Table 1: Nursing Home Compare Severity of Deficiency Scale

                 Level of Harm                                   Severity of Deficiency

                                                                 Potential for minimal harm - causing no more than a minor
                                    1
                                                                 negative impact on the resident.

                                                                 Minimal harm or potential for actual harm - results in
                                                                 minimal discomfort to the resident or has the potential (not yet
                                    2
                                                                 realized) to negatively affect the resident's ability to achieve
                                                                 his/her highest functional status.

                                                                 Actual harm - results in a negative outcome that has
                                    3                            negatively affected the resident's ability to achieve his/her
                                                                 highest functional status.

                                                                 Immediate jeopardy - places the resident in immediate
                                                                 jeopardy as it has caused (or is likely to cause) serious injury,
                                    4                            harm, impairment, or death to a resident receiving care in the
                                                                 nursing home. Immediate corrective action is necessary when
                                                                 this deficiency is identified.
                 Source: Nursing Home Compare Web site, Centers for Medicare & Medicaid Services, August 2003




                 Table 2: Nursing Home Compare Scope of Deficiency Scale

                 Residents affected                              Scope of Deficiency

                                   Few                           Deficiency affects one or the fewest number of residents, staff,
                                (Isolated)                       or occurrences.

                                                                 Deficiency affects more than a limited number of residents,
                              Some (Pattern)
                                                                 staff, or occurrences.

                                                                 Deficiency is found to be widespread throughout the facility
                      Many (Widespread)                          and/or has the potential to affect a large portion or all the
                                                                 residents.
                 Source: Nursing Home Compare Web site, Centers for Medicare & Medicaid Services, August 2003




O E I - 01 - 03 - 0 0 1 3 0        IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   14
�       A P P E N D I X                                      ~            B 



                              METHODOLOGY
                              For this report, we used inspection results data for nursing homes
                              included in Nursing Home Compare as of April 1, 2003. Nursing Home
                              Compare included 16,446 nursing homes on this date.
                              Nursing Home Compare Completeness
                              To determine the extent to which Nursing Home Compare includes all
                              Medicare- and Medicaid-certified nursing homes, we matched the Nursing
                              Home Compare database with the March 2003 Minimum Data Set (MDS)
                              facility file, a demographic data file of nursing homes that submit
                              resident assessments. We used the MDS facility file to match with
                              Nursing Home Compare since CMS requires all Medicare- and Medicaid-
                              certified nursing homes to report resident assessments. Using SAS®
                              statistical software, we matched provider numbers, names, and addresses
                              from both data sets to determine whether nursing homes in Nursing
                              Home Compare were also located in the MDS facility file. We also
                              reversed our match to determine whether nursing homes located in the
                              MDS facility file were found on Nursing Home Compare.
                              Since CMS composes the MDS facility file monthly, it was possible that
                              some of these nursing homes were in stages of closure or termination from
                              Medicare. Therefore, these nursing homes might not be included in the
                              MDS facility file for other months. For this reason, we matched nursing
                              homes not found in the March 2003 MDS facility file with those in the
                              February, April, May, and June 2003 MDS facility files. We also checked
                              Nursing Home Compare in September 2003 to determine whether the site
                              still included the unmatched nursing homes.
                              To further investigate whether nursing homes not found in both
                              databases remained in operation, we used various methods. These
                              included contacting one State survey agency, rechecking nursing homes in
                              the May, September, and October Nursing Home Compare database,
                              Internet searches, and phone calls to nursing homes.
                              Nursing Home Compare Accuracy
                              To determine whether Nursing Home Compare includes all intended
                              inspection results, as well as to determine the accuracy of nursing home
                              inspection results provided on Nursing Home Compare, we matched
                              inspection results for a sample of nursing homes in Nursing Home
                              Compare with survey documentation supplied by State survey agencies.
                              We selected a simple random sample of 150 nursing homes from the
                              16,446 included in Nursing Home Compare as of April 1, 2003. The
O E I - 01 - 03 - 0 0 1 3 0   IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   15
A    P      P      E       N      D   I     X      ~     B


                                          sample included nursing homes from 39 States, with a range of 1 to 20
                                          nursing homes per State. Our sample produces an estimate of the
                                          proportion of cases in which there is an inaccuracy between State survey
                                          documentation and Nursing Home Compare. This estimate is within 8
                                          percentage points of the actual inaccuracy rate at the 95 percent
                                          confidence level.
                                          For each State represented in our sample, we sent a letter to the State's
                                          director of nursing home certification requesting survey documentation
                                          for each sampled nursing home. Before sending the letter, we solicited
                                          comments from CMS central office officials, CMS regional office
                                          surveyors, and a State surveyor on its content and clarity. We requested
                                          the following survey documentation for each sampled nursing home in the
                                          State.
                                          •	     statements of deficiencies (CMS-2567 forms) from certification
                                                 (health) surveys, conducted between January 1, 1999 and March 31,
                                                 2003, as well as documentation of the completed corresponding life
                                                 safety code survey
                                          •	     statements of deficiencies (CMS-2567 forms) from complaint
                                                 investigations, conducted between December 1, 1999 and February
                                                 28, 2003
                                          •	     copies of letters from nursing homes requesting informal dispute
                                                 resolution for any deficiencies cited from the health surveys and
                                                 complaint investigations listed above, as well as documentation of
                                                 the informal dispute resolution outcome
                                          All States in our sample sent requested documentation for a 100 percent
                                          response rate. However, two States could not locate some information
                                          needed for our analysis for a total of four nursing homes. This
                                          information included one health survey each for two nursing homes, three
                                          complaint investigations for one nursing home, and two health surveys for
                                          one nursing home. Two of the missing health surveys were from 1998,
                                          and one was from 1997. In the instances where States could not locate
                                          information, we did not score Nursing Home Compare as inaccurate.
                                          We allowed State survey agencies to either mail paper copies of
                                          documentation or electronically mail files with the documentation. Of the
                                          39 States represented in our sample, 22 mailed paper copies of all
                                          documentation, 10 mailed files electronically, and 7 sent us both paper
                                          copies and electronic files. When necessary, we contacted States by



    O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   16
A    P      P      E       N      D   I       X    ~     B


                                          telephone or electronic mail and requested clarifications or additional
                                          information.
                                          To perform the comparison between the State survey documentation and
                                          Nursing Home Compare, we downloaded and printed the complete
                                          inspection information section from Nursing Home Compare in April 2003
                                          and matched Nursing Home Compare's information with the State
                                          documentation we received. We verified the following information:
                                          •	      inclusion of the three most recent health surveys and all
                                                  substantiated complaint investigations occurring between
                                                  December 1, 1999 and February 28, 2003
                                          •       dates of health surveys and complaint investigations

                                          •	      number of deficiencies per health survey and complaint
                                                  investigation
                                          •	      descriptions of deficiencies found during each survey or complaint
                                                  investigation
                                          •       description of severity for each deficiency

                                          •       description of affected residents (scope) for each deficiency.

                                          We also reviewed informal dispute resolution documentation to determine
                                          whether relevant deficiencies presented on Nursing Home Compare
                                          reflected the outcome of informal dispute resolution.
                                          To account for the time between the end of a survey and the transmission
                                          of its data into Nursing Home Compare, we employed criteria from the
                                          Fiscal Year 2003 CMS State Performance Guidelines. These guidelines
                                          require State agencies to enter results in the Online Survey Certification
                                          and Reporting (OSCAR) system within 70 days of the last day of the
                                          health survey or complaint investigation. Hence, we do not count any
                                          health survey or complaint investigation occurring after January 10, 2003
                                          as missing from Nursing Home Compare.
                                          When information from State survey documentation was not accurately
                                          reflected on Nursing Home Compare, we recorded the inaccuracies on
                                          paper forms and used Microsoft Access and SAS® statistical software to
                                          analyze the data.




    O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   17
A    P      P      E       N      D   I     X      ~     B


                                          The table below presents point estimates and confidence intervals at the
                                          95 percent confidence level for key figures presented in the findings
                                          section.



                                                                                                                                           Point           95 percent
                                                                                                                                           Estimate        confidence
                                                                                                                                                           interval

                                             Percent of nursing homes with no
                                                                                                                                           68%             +/- 7.5%
                                             inaccuracies

                                             Percent of nursing homes missing one or
                                                                                                                                           19%             +/- 6.3%
                                             more surveys on Nursing Home Compare

                                             Percent of nursing homes with deficiencies
                                             incorrectly posted on Nursing Home                                                            15%             +/- 5.7%
                                             Compare

                                             Percent of nursing homes with deficiencies
                                                                                                                                           11%             +/- 5.0%
                                             missing from Nursing Home Compare

                                             Percent of nursing homes with an incorrect
                                                                                                                                           8%              +/- 4.3%
                                             scope and/or severity score

                                             Percent of nursing homes with an incorrect
                                                                                                                                           4%              +/- 3.1%
                                             deficiency date

                                             Percent of nursing homes with an incorrect
                                                                                                                                           3%              +/- 2.7%
                                             deficiency description



                                          Interviews with CMS staff
                                          We interviewed CMS officials to learn about the process by which
                                          information from OSCAR is transmitted onto Nursing Home Compare,
                                          and the data systems involved. These interviews included staff from the
                                          Center for Beneficiary Choices, and Center for Medicaid and State
                                          Operations in CMS's central office, as well as CMS regional office staff.
                                          Document reviews
                                          We reviewed CMS documents that provide procedures or guidelines
                                          relevant to Nursing Home Compare. These documents include the State
                                          Operations Manual and the State Survey Agency Performance Standards
                                          for Fiscal Year 2003.




    O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY              18
�       A P P E N D I X                                      ~            C 



         Agency Comments




O E I - 01 - 03 - 0 0 1 3 0   IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   19

A    P      P      E       N      D   I     X      ~     C




    O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   20

A    P      P      E       N      D   I     X      ~     C




    O E I - 01 - 03 - 0 0 1 3 0           IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   21

�       A C K N O W L E D G E M E N T S 




                              This report was prepared under the direction of Mark R. Yessian, Ph.D.,
                              Regional Inspector General for Evaluation and Inspections in the Boston
                              Regional Office, and Joyce M. Greenleaf, MBA, Assistant Regional
                              Inspector General. Other principal Office of Evaluation and Inspections
                              staff who contributed include:
                              Maria E. Maddaloni, Project Leader

                              China D. Eng, Program Analyst




                              Baltimore:


                              Sandy Khoury, Program Specialist


                              Scott Horning, Program Analyst


                              Barbara Tedesco, Mathematical Statistician





O E I - 01 - 03 - 0 0 1 3 0   IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   ACCURACY   22
�       E N D                 N O T E S 





                              1The Nursing Home Compare website can be accessed at
                              http://www.medicare.gov/NHCompare/home.asp.
                              2 The numbers presented show overall visits to Nursing Home
                              Compare. CMS does not collect information that could be used to
                              identify a visitor to its Web sites. Hence, CMS is not able to
                              determine the number of unique visitors to Nursing Home Compare.
                              3 Nursing Home Compare typically presents deficiencies from
                              complaint investigations for about a 2-year period. For the data used
                              in this inspection, Nursing Home Compare included deficiencies from
                              complaint investigations between December 1, 1999 and February 28,
                              2003.
                              4Fiscal Year 2003 State Performance Review Protocol Guidance,
                              Centers for Medicare & Medicaid Services, May 2003, pp. 41-48.
                              5Fiscal Year 2003 State Performance Review Protocol Guidance,
                              Centers for Medicare & Medicaid Services, May 2003, pp. 41-48.
                              6 A T-test found a statistically significant difference between the
                              mean number of deficiencies for nursing homes with inaccuracies and
                              for nursing homes with no inaccuracies at the 95 percent confidence
                              level.


                                   Average number of deficiencies

                                   Sample (n=150)                                                                                                    22

                                   Nursing homes with no inaccuracies on Nursing Home
                                                                                                                                                     16
                                   Compare (n=103)

                                   Nursing homes with inaccuracies on Nursing Home Compare
                                                                                                                                                     35
                                   (n=47)

                                   T= -4.94                                                                                   Degrees of freedom=57.6



                              7Fiscal Year 2003 State Performance Review Protocol Guidance,
                              Centers for Medicare & Medicaid Services, May 2003, pp. 44-45.



O E I - 01 - 03 - 0 0 1 3 0   IN S P E C T I O N R ESULTS   ON   N U R S I N G H OME C O M P A R E : CO M P L E T E N E S S   AND   A CC U R A C Y    23
